<html>
<title> - ACHIEVING THE UNITED NATIONS MILLENNIUM DEVELOPMENT GOALS: PROGRESS THROUGH PARTNERSHIPS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                ACHIEVING THE UNITED NATIONS MILLENNIUM
                  DEVELOPMENT GOALS: PROGRESS THROUGH
                              PARTNERSHIPS

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2010

                               __________

                           Serial No. 111-121

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
57-686PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                   RUSS CARNAHAN, Missouri, Chairman
BILL DELAHUNT, Massachusetts         DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
THEODORE E. DEUTCH, Florida









                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Kathy Calvin, Chief Executive Officer, United Nations 
  Foundation.....................................................     7
John McArthur, Ph.D., Chief Executive Officer, Millennium Promise    16
Scott C. Ratzan, M.D., Vice President, Global Health, Government 
  Affairs and Policy, Johnson & Johnson..........................    26
Mr. James Roberts, Research Fellow for Economic Freedom and 
  Growth, The Heritage Foundation................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri, and Chairman, Subcommittee on 
  International Organizations, Human Rights and Oversight: 
  Prepared statement.............................................     3
Ms. Kathy Calvin: Prepared statement.............................    11
John McArthur, Ph.D.: Prepared statement.........................    20
Scott C. Ratzan, M.D.: Prepared statement........................    30
Mr. James Roberts: Prepared statement............................    37

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Russ Carnahan: Material submitted for the record...    64

 
  ACHIEVING THE UNITED NATIONS MILLENNIUM DEVELOPMENT GOALS: PROGRESS 
                          THROUGH PARTNERSHIPS

                              ----------                              


                         TUESDAY, JULY 27, 2010

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2172, Rayburn House Office Building, Hon. Russ Carnahan 
(chairman of the subcommittee) presiding.
    Mr. Carnahan. Good morning. I want to call the Subcommittee 
on International Organizations, Human Rights and Oversight to 
order this morning and kick off our hearing this morning on 
``Achieving the United Nations Millennium Development Goals: 
Progress Through Partnerships.''
    And I will begin with an opening statement. After that, I 
will turn it over to others here for opening remarks and look 
forward to introducing our panel.
    Ten years have passed since 192 nations and multilateral 
organizations set eight international development targets, 
which became known as the Millennium Development Goals, or 
MDGs, representing a collective international effort toward 
improving the lives of those living in developing countries.
    The goals include: The eradication of extreme poverty and 
hunger; achievement of universal primary education; promotion 
of gender equality and empowerment of women; reduction of child 
mortality; improvement of maternal health; halting and 
reversing the spread of HIV/AIDS, malaria, and other diseases; 
environmental sustainability; and creation of a global 
partnership for development.
    At last year's U.N. General Assembly, President Obama 
stated, ``We will support the Millennium Development Goals and 
approach next year's summit with the goal to make them a 
reality.'' It is in the interest of the U.S. to stick to this 
commitment. We must use this strategy to take a leadership role 
at the United Nations high-level review of the Millennium 
Development Goals, which takes place on September 20th through 
the 22nd in New York City. I look forward to receiving the 
administration's MDG strategy in the coming days.
    As we recover from an economic recession, it is important 
to keep in mind that the MDG goals are not only a moral 
commitment of U.S. and universal values, but they are also 
vital to our security and economic prosperity. Fighting 
poverty, hunger, the lack of access to education and health 
care helps reduce unrest and extremism, which can contribute to 
hatred and violence.
    The MDGs also help to leverage U.S. aid, bringing in 
contributions from other countries, the private sector, and 
civil society. Collectively, our investment helps to reduce 
extreme poverty and build a growing middle class abroad, which 
will ultimately buy U.S. products. Achieving MDGs helps the 
world's most needy, but it also is good for America's producers 
and consumers.
    Since 2000, the global community moved steadily toward 
achieving many of these goals. In developing regions, net 
enrollment in primary education increased by 5 percent between 
2000 and 2007. Globally, the new HIV infection rate decreased 
from an estimated peak of 3.5 million in 1996 down to 2.7 
million in 2008. And as we heard last month at this 
subcommittee's hearing on women as agents of change, women's 
share of national parliamentary seats has increased from 6 
percent to 19 percent in the last 10 years.
    Unfortunately, progress has stagnated in other areas. The 
mortality rate for children under 5 is still well under the 
target of a two-thirds reduction. And we have seen an increase 
in poverty rates over the last year. Finally, as we heard last 
week at our hearing on the administration's Feed the Future 
Initiative, the number of hungry people increased from 842 
million in the early 1990s to over 1 billion people in 2009.
    In order to address these critical challenges, we must 
adhere to a strategy that is cost-effective, invests wisely in 
the developing world, and works with our national security 
strategy. The U.S. Government has played and will continue to 
play a vital role in this effort.
    However, we need to ensure that we do so in a collaborative 
manner that leverages all available resources. The private 
sector is in a unique position to contribute their expertise, 
resources, and innovative techniques toward this global effort.
    Targeted public-private intervention programs have already 
proven successful. For example, the incidence of polio has 
plummeted by more than 99 percent since 1988, when Rotary 
International partnered with the WHO, CDC, and UNICEF to launch 
the Global Polio Eradication Initiative.
    Another project, Millennium Villages, supports social and 
business development services for more than 400,000 people in 
rural communities across 10 countries in Africa. Finally, there 
are many microfinance programs that serve as examples of 
successful public-private initiatives that have helped to 
reduce poverty and empower women.
    I look forward to hearing from our witnesses today about 
lessons learned from their public-private partnerships and what 
initiatives can be scaled up to meet MDGs.
    I will now recognize our ranking member, Representative 
Rohrabacher of California, for his opening statement.
    [The prepared statement of Mr. Carnahan follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    While I am here to listen to what you have to say, you have 
a skeptic here, obviously. You know, when you got $1.5 trillion 
more going out than you got coming in, pretty soon, if we don't 
change that--you know, last year it was $1.5 trillion deficit, 
this year it is $1.5 trillion--that is not billion-dollar 
deficit, this is trillions--within a short period of time, our 
country is going to turn around and our economy will have 
totally collapsed.
    All these young people you see in the audience, it is going 
to be a disaster for their lives. You know, already they are 
going to be on the hook for hundreds of billions of dollars 
that is going to be taxed from them every year in order just to 
provide the interest on what we are doing in the last 2 years.
    So, yeah, we need to care about people around the world who 
are in need, but we got to put our own house in order. And if 
trying to take care of people across the ocean and in different 
places where people are in need and horrible situations, if by 
trying to care of them we exacerbate our problem at home and 
dump our own future generations into poverty, we will have 
sinned against our own people.
    So I want to know why this is a good idea. If you want to 
spend more money on it, I want to know why it is a good idea 
for those young people and their future, and how it will affect 
this $1.5 trillion worth of debt that we are putting ourselves 
into every year. It makes no sense.
    We learned from some papers that were leaked--and I thought 
the person who leaked those papers did a good job for the 
people of the world--we learned that Pakistan has continued all 
of these years in supporting the Taliban, while we give, Mr. 
Chairman, what, a $7 billion package to Pakistan to help them 
build their economy, at a time when we just find out through 
these leaked documents that Pakistan has been helping the 
Taliban the whole time. Does that make any sense? That makes no 
sense at all.
    Borrowing money from China in order to give to Pakistan, 
China's ally, in order to help the Taliban, while the Taliban 
are fighting the United States? Well, this is about as much 
sense as a lot of these programs that I have been looking at 
over these years make--you know, when you look back on it, 
makes no sense at all, most of these things. So, now that we 
are in a crisis, maybe we can ask some very fundamental 
questions.
    So I am looking forward to your testimony. I am going to 
listen, so we will see what happens.
    Mr. Carnahan. Thank you.
    I now want to yield 5 minutes for an opening statement to 
Mr. Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. And I thank 
you for convening this very important hearing on the Millennium 
Development Goals. As you know, the outcome documents of the 
high-level summit on the Millennium Development Goals continues 
to be negotiated at the U.N. this week. It will be an important 
roadmap for the next steps to be taken.
    I wanted to take this opportunity to focus our conversation 
and efforts on achieving MDGs 4 and 5 jointly. We must keep in 
mind that to achieve MDGs 4 and 5, reducing child mortality and 
maternal mortality, both mother and unborn child must be 
treated as co-patients in need of care, compassion and, when 
sick, either patient or both patients, in need of timely 
interventions. We must strive to save and to affirm both.
    The April 2010 Lancet medical journal published a 
groundbreaking study funded by the Bill and Melinda Gates 
Foundation that shows that worldwide maternal mortality has 
been decreasing since 1980. Progress is being made by many 
countries, and the successful policies must continue.
    The study analyzed volumes of studies and data, including 
WHO maternal mortality data. And, using statistical methods now 
available through advanced computer technology, the study found 
that the number of maternal deaths per year as of 2008 is 
342,900. That is down from 526,300 in 1980, about a 40-percent 
drop. The study notes that if the world wasn't suffering from 
the HIV/AIDS pandemic, the total number would be 281,500, 
almost 50 percent down from the 1980 levels.
    While still too high, this landmark report is encouraging 
to governments who have been seriously addressing maternal 
mortality in their countries by increasing the number of 
skilled birth attendants.
    I would note parenthetically that I hosted a group of OB-
GYNs who talked about their work in Africa, and they said, 
``100 years ago we realized how to reduce maternal mortality. 
You need a skilled birth attendant, the capability to do a C-
section when there is an obstructed delivery, and you need to 
have the ability to provide safe blood so that that woman can 
get a transfusion, if necessary.'' Education of women is also 
important.
    I actually chaired a hearing on safe blood, Mr. Chairman, 
and the WHO rep at that particular hearing said if women in 
Africa had access to safe blood, maternal mortality would drop 
by 44 percent. Unfortunately, for so many, that blood is simply 
not there.
    And, of course, economic development and the education of 
women is also very important, as well. And there are others.
    Many of these countries with very low maternal mortality 
rates have laws, however, that restrict abortion. The inclusion 
of legalized abortion, or so-called reproductive health 
services defined as abortion in the outcome document, I believe 
would be unjust, intellectually dishonest, and 
counterproductive to the littlest humans and efforts to provide 
successful efforts for the MDGs.
    In fact--and this is largely under-known and under-focused-
upon--abortion can have a negative effect on the reproductive 
health of the mother as well as the health of her subsequent 
children. At least 113 studies show a significant association 
between abortion and subsequent premature and low-birth-weight 
births. For example, a study in the International Journal of 
Obstetrics and Gynecology showed a 36-percent increased risk 
for a preterm birth after one abortion and a staggering 93-
percent increased risk after two. Similarly, the risk of 
subsequent children being born with low birth weight increased 
by 35 percent after one and 72 percent after two or more 
abortions. Another study showed the risk increases nine times 
after a woman has had three abortions.
    What does this mean for her children? Preterm birth is the 
leading cause of infant mortality in the United States and 
causes one-fourth of infant mortality in the world. Preterm 
infants have a greater risk of suffering from chronic lung 
disease, sensory deficits, cerebral palsy, cognitive 
impairments, and behavioral problem. Low birth weight is 
similarly associated with neonatal mortality and morbidity. 
Abortion hurts both mother and child and can cause sickness, 
even death, in future children.
    I would also point out to my colleagues that abortion is 
child mortality for the child who is actually aborted. And, 
again, the mortality and morbidity of future children is at 
risk. Abortion methods chemically poison, dismember, induce 
premature labor, or starve to death the fragile life of an 
unborn child. So terms like ``safe abortion,'' which is thrown 
around very loosely, is, at best, misleading. ``Safe abortion'' 
is never safe for the baby.
    Another cause of infant mortality should be addressed in 
the outcome document, and it is birth asphyxia, which kills 1 
million newborns each year--more than malaria and five times 
more than AIDS. There is much we can do, even in resource-
limited situations, to ensure that babies take their first 
breath in that golden minute right after birth. Skilled 
attendants, again, at birth; temperature support and 
stimulation to breathe; and assisted ventilation through the 
use of low-cost resuscitators are interventions we can and 
should be making available to achieve MDG 4.
    The MDG document will be very important for guiding our 
steps as an international community over the next 5 years. 
Every step counts. And I hope that our panelists will use all 
of their influence to ensure that the outcome document keeps us 
on the path of saving both mother and child.
    Again, I thank you, Mr. Chairman.
    Mr. Carnahan. Thank you.
    And now I want to turn to our panel.
    And let me start to my left with Ms. Kathy Calvin. She is 
the chief executive officer at the United Nations Foundation. 
The foundation was created in 1998 with Ted Turner's $1 billion 
gift to support U.N. activities. Prior to joining the U.N. 
Foundation, Ms. Calvin served as president of AOL-Time Warner 
Foundation. She has also worked at Hill and Knowlton, as well 
as U.S. News and World Report. From 1976 to 1984, she served as 
Senator Gary Hart's press secretary in his Senate office and on 
his 1984 Presidential campaign. She is a graduate of Purdue 
University.
    Next, Dr. John McArthur. He is chief executive officer of 
Millennium Promise, a nonprofit organization committed to 
supporting the achievement of the Millennium Development Goals. 
He is also research associate at the Earth Institute at 
Columbia University and teaches at Columbia School of 
International and Public Affairs. Previously, he served as the 
deputy director and manager of the U.N. Millennium Project. He 
completed his bachelor of arts at the University of British 
Columbia, a master's in public policy at Harvard's Kennedy 
School of Government, and a master's and doctorate in economics 
at Oxford University, which he attended as a Rhodes Scholar.
    Next, Dr. Scott Ratzan. He serves as vice president for 
global health, government affairs, and policy at Johnson & 
Johnson. He is co-chair of the U.N. Secretary-General's Joint 
Action Plan on Women and Children's Health Innovation Working 
Group. Previously, he served as senior technical adviser in the 
Bureau of Global Health at the USAID, where he developed the 
global health communication strategy for U.S.-funded efforts in 
65 countries. He received his MD from the University of 
Southern California, MPA from Harvard University's Kennedy 
School of Government, and MA from Emerson College.
    And, finally, Mr. James Roberts. He is the research fellow 
in economic freedom and growth at the Heritage Foundation 
Center for International Trade and Economics. His primary 
responsibility is to produce the ``Index of Economic Freedom,'' 
an annual analysis of the economic climate of countries 
throughout the world. Before joining Heritage, Mr. Roberts 
worked for the U.S. State Department for 25 years, serving in 
Mexico, Portugal, France, Panama, and Haiti. He also served as 
an intelligence officer in the U.S. Navy Reserve. He has a 
master's degree in international development and economics from 
Yale, an MBA from the University of Pittsburgh, and a 
bachelor's degree in international affairs from Lafayette 
College.
    Welcome to our panel. We look forward to hearing from you.
    And we will start, and I will recognize Ms. Calvin for 5 
minutes.

STATEMENT OF MS. KATHY CALVIN, CHIEF EXECUTIVE OFFICER, UNITED 
                       NATIONS FOUNDATION

    Ms. Calvin. Thank you, Mr. Chairman, and good morning. 
Thank you for calling today's hearing on the Millennium 
Development Goals. Your leadership in support of American 
efforts to battle extreme poverty, hunger, and disease in the 
developing world and to support the U.N. in its programs is 
greatly appreciated.
    And thank you for inviting the U.N. Foundation to testify. 
When Ted Turner created the U.N. Foundation, it was because he 
believed in the U.N. and its value to creating a platform to 
connect people, ideas, and resources to support its work around 
the world and to strengthen the relationship between the United 
States and the U.N.
    As you mentioned, the President will be bringing to the 
world leaders in just 2 months his plan for the United States 
to help achieve the MDGs, as he promised last year when he was 
before the world leaders. We believe his speech this vitally 
important because it will signal to the world that our Nation 
will continue to play a leadership role in battling global 
poverty, despite, as you pointed out, the very tough economic 
times here at home, and that the United States is fully 
committed to working with the U.N., other donor countries, and 
the developing world itself.
    As you pointed out, the MDGs are an internationally 
recognized framework to allow bilateral and multilateral donors 
to work together. But it takes more than one sector, and that 
is why we are here today to talk about partnerships.
    You might expect me to make the point that the MDGs are a 
critical component of our strategic imperative, but I want to 
quote someone else, and that is Secretary Gates, who said last 
year,

        ``In the campaign against terrorist networks and other 
        extremists, we know that direct military force will 
        continue to have a role. But over the long term, it 
        should be subordinate to measures to promote 
        participation in government, economic programs to spur 
        development, and efforts to address the grievances that 
        often lie at the heart of insurgencies and among the 
        discontented from which the terrorists recruit.''

That is exactly what the Millennium Development Goals seek to 
achieve.
    And I think you know, Mr. Chairman, there is strong support 
from American voters for the MDGs. In April, the U.N. 
Foundation and our sister organization, the Better World 
Campaign, conducted bipartisan polling and found that 87 
percent of Americans believe the U.S. should achieve the MDGs. 
And the majority said they would favorably look on companies 
that are using their finances and other resources to support 
these programs. That is good news for all of us.
    So I want to touch today just very briefly on the kinds of 
partnerships that we think work not only to achieve these goals 
but actually to multiply the impact and effect of our scarce 
public funds.
    I will start with a couple campaigns you know about. The 
first is Nothing But Nets, which is a campaign to combat 
malaria. And thank you for all the work this committee has done 
to strengthen and increase the U.S.'s support for fighting 
malaria.
    As you know, every 30 seconds, a child in Africa dies from 
malaria and infection, making it the leading killer of children 
on the continent. We believed American citizens wanted to join 
this fight against malaria, so we launched a grass-roots 
campaign 3 years ago called Nothing But Nets to raise awareness 
and funding. It has a simple message: Malaria kills, send a 
net, safe a life--a simple $10 donation.
    The campaign has been incredibly successful in giving 
hundreds of thousands of supporters the chance to raise funds 
and awareness, but it wouldn't be possible without partners 
from the corporate and foundation world, including diverse 
partners such as the National Basketball Association, Major 
League Soccer, and the United Methodist Church. So a pairing of 
bishops and basketball players might not seen natural, but, 
along with 14 other partners, it has allowed us to raise more 
than $33 million to distribute more than 3 million nets in 15 
countries.
    We have also done work in combating measles around the 
world. And this is an example of a partnership that draws on 
the best of different partners, from the countries themselves 
to governments, to private sector. We found that the challenge 
from measles was great. Nothing was moving, in terms of its 
reduction. But, in the last 10 years, measles deaths have 
dropped 10 percent a year in Africa.
    One organization on its own could never have done this; it 
took a partnership. The partnership includes the American Red 
Cross, the U.S. Centers for Disease Control, UNICEF, the World 
Health Organization, and the LDS Church, and Vodafone. We have 
done work in measles, malaria, and polio. And, as you 
mentioned, Rotary International has led perhaps the most 
successful partnership of all in almost eradicating that.
    We think there are opportunities across the board for 
partners to come together. We are currently developing a 
campaign around adolescent girls to link girls in this country 
with girls around the world so that they can help those girls 
share the fortunes that they share here, the same opportunities 
to go to school, stay healthy, and be safe.
    We are also working on a partnership to bring organizations 
together who care about the same issue: Freeing up women and 
children from the dangers of black carbon and cookstove smoke 
when they are cooking. This is a major effort and has brought 
together many, many different partners.
    And we have a major partnership around mobile phones, using 
them to increase the ability for health workers, as you pointed 
out, Congressman Smith, to reach those mothers and children who 
most need it. We have created partnerships with the World 
Health Organization in 22 African countries so that they could 
use mobile phones, instead of the previous pen and paper, to 
collect date, share information, and help.
    All of those experiments in partnerships have led us to 
know a couple different things about partnerships that we think 
would be worth sharing with this committee as we think about 
making partnerships successful and an important part of the 
U.S. commitment to meeting the MDGs.
    First, in any partnership, it is important to bring all of 
the partners and recipients together at the table from the 
start. Co-creation is essential.
    Second, partnerships succeed best when everyone has a clear 
role to play and can play from their strengths and competencies 
and not just financial resources.
    Third, we think partnerships work best when they take the 
time to create full business plans, with clear goals and 
objectives serving the various interests of the diverse 
partners.
    Fourth, the U.N., which traditionally had not been a 
partner-friendly organization outside of it normal member-state 
environment, is becoming much more adept and successful at 
partnerships, and so is the U.S. Government. And so, too, are 
the governments in the countries in which we are trying to make 
a difference. They are essential partners, at the end of the 
day.
    And, fifth, Congress has an important opportunity to 
support public-private partnerships in support of the 
Millennium Development Goals. So, as this committee considers 
legislation to rewrite the Foreign Assistance Act, I hope you 
will consider the importance of sending a signal to USAID and 
the State Department to work closely and use public-private 
partnerships and to actively encourage these efforts which they 
are already considering. Given scarce public and private 
resources, it is imperative that money be well-spent and 
effectively coordinated.
    So, in conclusion, I just want to say I am really proud 
that the foundation has had a successful history of 
partnerships. And looking forward, we continue to look for 
opportunities to expand them and scale them up, because we 
think that is the most effective way we can help achieve the 
Millennium Development Goals.
    Thank you very much.
    [The prepared statement of Ms. Calvin follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you.
    Next I want to recognize Dr. John McArthur for 5 minutes.

  STATEMENT OF JOHN MCARTHUR, PH.D., CHIEF EXECUTIVE OFFICER, 
                       MILLENNIUM PROMISE

    Mr. McArthur. Thank you, Mr. Chairman, and thank you to 
members of the committee for the honor of inviting me to 
testify today and for your leadership in convening this 
important hearing on the Millennium Development Goals at what 
is very much an important juncture in their history.
    The goals were established by world leaders, as you 
mentioned, at the Millennium Summit in September 2000. I think 
one of their greatest contributions is that they are a series 
of specific, quantified, and time-bound targets to address the 
integrated challenges of hunger, education, health, 
infrastructure, environmental management, and gender equality.
    What they have done is they have galvanized a global effort 
of unprecedented, if still imperfect, coherence to tackling the 
challenges that are faced by the one-fifth of humanity that 
still lives under the most extreme forms and conditions of 
poverty, which we generally describe as living on less than $1 
a day.
    The summit this September, which has previously been 
referred to, is the last major checkpoint on the status of the 
Millennium Goals before the 2015 deadline. World leaders will 
convene to agree on the actions required to achieve the goals. 
And the ambitions very much were set by President Obama last 
September, when he asserted in his speech at the General 
Assembly that the United States will support these goals, will 
approach this year's summit with a global plan to make them a 
reality, and will very much set our sights, as he said, on the 
eradication of extreme poverty in our time.
    The MDGs are the world's goals. Their emphasis on outcomes 
has prompted a global effort to address issues of scale, 
metrics, finance, and joint accountability between developed 
and developing countries.
    Since they were established 10 years ago, the developing 
world has seen many breakthroughs, as have been discussed in 
some detail already. We have seen hundreds of millions of 
people lifted out of conditions of extreme poverty. We have 
seen massive expansion in global health efforts. We have seen 
dramatic inroads in the fight against disease. We have seen 
extraordinary progress in areas of access to water, in some 
countries in particular. And there are many, many successes 
that many thought were impossible before the goals came to 
fruition.
    The challenge today is to accelerate progress in the 
poorest countries where the MDGs are not on track. In general, 
the starkest gaps are in the areas of agricultural 
productivity, maternal health and health systems, water, and 
economic infrastructure for growth in the poorest countries. I 
would be pleased to share more details with the committee 
regarding these programs and successes and gaps, but for now 
let me stress that these are the areas where an especially 
concerted push is needed.
    The MDGs should be, but have not been, a strategic priority 
for the United States. They have a complicated history in this 
country. In 2002, the spirit of the goals was incorporated into 
the establishment and naming of, indeed, the Millennium 
Challenge Account and, in turn, the Millennium Challenge 
Corporation, although that institution has not, in practice, 
focused on the Millennium Development Goals. The wording 
disconnect has even caused confusion in much of Washington, 
since ``millennium'' as a word tends to be associated with the 
growing pains of a new institution rather than the 
internationally agreed targets that have been driving the 
global antipoverty agenda throughout the rest of the world.
    Nonetheless, in 2002, President Bush joined world leaders 
in Monterrey, Mexico, and committed the United States, along 
with other developed countries, to make concrete efforts toward 
the target of 0.7 percent of gross national product as official 
development assistance to developing countries.
    Fortunately, the Millennium Goals are feasible within this 
commitment since the financing requirements are modest: 
Approximately \1/2\ of 1 percent of the rich countries' 
collective national incomes--\1/2\ of 1 percent.
    However, U.S. foreign assistance continues to rank among 
the very lowest of advanced economies, at 0.2 percent of 
national income. Few people outside of Washington are aware 
that, as a share of national income, U.S. Foreign assistance 
actually hit its all-time low in 1997. Under the Bush 
administration, the U.S. made an important change in direction, 
led by targeted and focused programs that tackled challenges of 
HIV/AIDS and malaria, in particular, through both bilateral 
programs and multilateral programs, such as The Global Fund to 
Fight AIDS, TB, and Malaria.
    Congress's bipartisan commitment to global health is to be 
applauded. It has had a significant multiplier effect in 
leveraging additional commitments from around the world. The 
Obama administration has continued its predecessor's support 
for global health, although there are concerns that support in 
this area is flat-lining much too prematurely. The Obama 
administration has also played a pivotal role in advancing the 
global agriculture agenda.
    The U.S. situation can be compared, for example, to the 
U.K. situation, where Prime Minister Cameron and the 
conservative government in coalition has taken on the 0.7 
target to be achieved by 2013. In the most recent budget, the 
government confirmed that it would not carry its fiscal 
consolidation program on the backs of the world's poorest 
people and has actually protected both health and international 
development while making dramatic cuts throughout the rest of 
the government to consolidate its fiscal position.
    Millennium Promise was created amidst this backdrop of 
global support for the MDGs, the Millennium Goals, cofounded by 
Mr. Raymond Chambers, the path-breaking business leader, and 
Professor Jeffrey Sachs, the eminent economist, bringing 
together many others like Donald Keough, the former CEO of 
Coca-Cola; Quincy Jones, the music legend; and many others from 
Columbia University, the U.N. Development Program, and so 
forth.
    As the chairman said, we convened many people across Africa 
to work with nearly 0.5 million local villagers across 10 
countries to implement an integrated approach of low-cost, 
high-impact interventions. The results have been tremendous: A 
tripling of basic maize yields, more than a 50-percent 
reduction in malaria prevalence, a three-fold increase in 
access to improved drinking water, and a remarkable one-third 
reduction in child malnutrition.
    This has drawn upon partnerships from leading private 
philanthropists, such as Mr. George Soros; from corporate 
partners like Ericsson, which is bringing 3G connectivity to 
villages across Africa; Sumitomo Chemical, which has piloted 
the mass distribution of bed nets; Agrium and Mosaic, which are 
making major contributions of fertilizer; and Tommy Hilfiger, 
which is supporting programs directly.
    These lessons of success have fed into a much broader 
movement. And the strategy of partnership is crucial for the 
goals to be achieved, from both public and private leaders.
    We have seen efforts like Malaria No More take shape, 
chaired now by Peter Chernin, the former president of News 
Corp., who has provide magnificent leadership with many 
celebrities, government leaders, private foundations like the 
U.N. Foundation, to make a major breakthrough in malaria 
control.
    We have seen the World Economic Forum's community of young 
global leaders take on a ``People's Plan of Action'' for the 
Millennium Development Goals, with the idea that every person 
has the ability and a responsibility to make a measurable, 
action-oriented pledge to the goals.
    Less than 2 months before the summit, the world has been 
anxiously awaiting the United States to present its draft 
action plan. The administration recently presented a two-page 
outline of its strategy, but this is only a loose statement of 
general directions. If the U.S. is to provide leadership for 
the MDGs, it is imperative that the government presents a draft 
action plan in a matter of days, not weeks.
    So I would like to conclude, Mr. Chairman and members of 
the committee, by offering a few suggestions for that draft 
action plan.
    First, fully fund the Feed the Future strategy, in 
particular through the new multilateral Global Agriculture and 
Food Security Program.
    Second, support a new global fund for education, as 
proposed by President Obama and Secretary Clinton, and include 
secondary education in its mandate, with a special focus on 
girls.
    Third, continue to scale up the U.S. global health 
leadership by focusing on the problems that still need to be 
solved. That includes full financing for the programs PEPFAR 
and PMI for AIDS and malaria and increasing the annual 
contribution to The Global Fund from $1 billion to $2 billion a 
year, recognizing that $1 from the U.S. leverages $2 from other 
advanced economies.
    And, crucially, also endorsing the Secretary-General's 
proposed joint action plan for child, maternal, and newborn 
health, and carry that forward by creating a new multilateral 
effort on maternal and child health, anchored in The Global 
Fund, with initial U.S. financing of $2 billion per year, again 
leveraging the 1:2 ratio that comes with other financing 
crowding in with the U.S.
    Fourth, support a major scale-up of African economic 
infrastructure with U.S. Funding of at least $5 billion per 
year, including allocations through the World Bank and the 
African Development Bank.
    Fifth, work with African countries to support holistic 
world development strategies, like the Millennium Villages.
    Six, launch a new MDG innovation fund to scale up 
successful programs that present new delivery mechanisms for 
MDG achievement in low-income countries.
    And, seventh and finally, set a 12-month timetable for the 
proposal and adoption of a proper international mechanism to 
achieve the water and sanitation Millennium Development Goals.
    Thank you so much for allowing me to share these thoughts 
today, and I look forward to discussing them further.
    [The prepared statement of Mr. McArthur follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you.
    And next I would like to recognize Dr. Scott Ratzan.

  STATEMENT OF SCOTT C. RATZAN, M.D., VICE PRESIDENT, GLOBAL 
    HEALTH, GOVERNMENT AFFAIRS AND POLICY, JOHNSON & JOHNSON

    Dr. Ratzan. Thank you, Mr. Chairman and committee members. 
On behalf of Johnson & Johnson, I really appreciate the 
opportunity for you calling this important hearing and inviting 
us to share our thoughts and perspectives of achieving the U.N. 
Millennium Development Goals.
    Particularly, we would like to talk about how public-
private partnerships, or, Mr. Chairman, as you call them, 
private interventions or initiatives, can play a significant 
role. And we appreciate your leadership, Mr. Chairman, in 
supporting efforts to address the MDGs.
    The challenges we face as a global community to achieve the 
MDGs, particularly in maternal and child health, are great. And 
the MDGs that relate to women and children's health are lagging 
furthest behind. For example, a woman in an underdeveloped 
country is 300 times more likely to die during childbirth or 
from pregnancy-related complications than her counterpart in a 
developed country. Bold, focused, and coordinated action is 
required to accelerate progress on the MDGs related to health.
    With only 5 years left until 2015 to achieve the MDGs, U.N. 
Secretary-General Ban Ki-moon initiated a new global effort on 
women and children's health, titled, ``Investing in Our Common 
Future: Joint Plan of Action for Women and Children's Health.'' 
Johnson & Johnson was one of the two representatives of the 
private sector initially selected to participate in the 
Secretary-General's initiative, joining others from throughout 
the United Nations member states and key civil society actors.
    I co-chair the Innovation Working Group of the U.N. Joint 
Action Plan, along with Tore Godal, who is special advisor on 
Global Health to the Prime Minister of Norway. This group 
includes representatives from USAID, the United Nations, 
Canada, Rwanda, India, Harvard University, Rockefeller and 
Gates Foundations, and others.
    The Innovation Working Group has published draft papers 
that promote ideas that should catalyze future opportunities 
for the MDGs. They are available on the Web site and will be 
published later this year. And we have made these available, 
Mr. Chairman, to the committee. There are 10 different ones 
that are here, with a variety of perspectives, again, to foster 
innovation.
    We know that progress in developing and delivering healthy 
pregnancies and healthier babies is possible with innovation. 
Some of the poorest countries are now making significant 
reductions in maternal and neonatal mortality. Country-led as 
well as global innovations can achieve further reductions 
enabling health services to produce better outcomes at the same 
costs that we have today. These range from financial incentives 
to promote performance and results to innovative use of mobile 
phones and other communication tools, some of which you have 
already heard about.
    These working papers include ways to improve effective 
services for women and children, including improving health 
literacy, the development and use of new technologies, as well 
as innovation and delivery of services through public-private 
initiatives.
    Johnson & Johnson has a long legacy of engaging in public-
private partnerships focused on maternal and child health 
initiatives in many developing and developed countries. All of 
these have a focus of making life-changing, long-term, 
sustainable differences in human health and tied to advancing 
one or more of the Millennium Development Goals. Our approach 
focuses on working with community-based partners that have the 
greatest insights into the needs of local populations and the 
strategies that stand the greatest chances of success.
    Some of our examples of our activities include 
contributions microbicide development, HIV prevention, helping 
children attain their utmost potential by treating and 
preventing intestinal worms, efforts to halt the scourge of 
tuberculosis, and initiatives to prevent mother-to-child 
transmission of HIV. I will go through four of these examples.
    The first is from 2004, when Johnson & Johnson established 
a first-of-its-kind partnership with the International 
Partnership on Microbicides to provide a royalty-free license 
and technology transfer to develop, manufacture, and distribute 
its compound TMC120 as a topical vaginal microbicide to help 
protect women from infection with HIV in developing countries. 
We were the first pharmaceutical company, and this effort 
spearheaded other companies to follow suit with further 
contribution of their compounds to the IPM partnership. And, as 
you may have heard last week in Vienna, microbicides are a 
promising approach to halting the incidence of HIV.
    Secondly, since 2006, we have partnered with the Task Force 
for Global Health on Children Without Worms. This is the first 
and only entity to focus specifically on global treatment and 
prevention of soil-transmitted helminthiasis, or commonly known 
as intestinal worms. STH, or soil-transmitted helminthiasis, 
contributes to general weakness, malnutrition, iron-deficiency/
anemia, and impaired physical and intellectual development in 
school-aged children.
    The program that we have helped developed is treating 
approximately 20 million people with mebendazole, a drug 
developed by our pharmaceutical business, and is working to 
stop the cycle of reinfection through health education, access 
to clean water, and improved sanitation infrastructures. And 
this is currently active in eight countries that have high 
prevalence rates.
    Third, as the new drugs for development of drug-resistant 
tuberculosis are in dire need, Johnson & Johnson formed a 
landmark collaboration with the Global Alliance for TB Drug 
Development, a not-for-profit product development partnership 
to accelerate the discovery and development of new drugs to 
fight tuberculosis. This collaboration is maximizing the 
expertise and resources from the both the public and private 
sectors, with the intent to improve the treatment of one of the 
world's oldest and most deadly diseases. We are sharing 
expertise and resources in the development of a novel Johnson & 
Johnson compound in development, and this is heralded as the 
first new tuberculosis drug with a new mechanism of action in 
40 years.
    And, finally, Mr. Chairman, a final example that we would 
like to talk about contributes to how we have helped eliminate 
mother-to-child vertical transmission of HIV by 2015, which has 
also been heralded as a goal by the United Nations.
    For several years, Johnson & Johnson has partnered with the 
Elizabeth Glaser Pediatric AIDS Foundation and mothers2mothers. 
Our partnership has reached more than 1.9 million women with 
counseling, provided more than 1.7 million with HIV testing, 
and administered antiretroviral prophylaxis to nearly 140,000 
HIV-positive mothers in 11 countries.
    J&J also became mothers2mothers' first corporate partner in 
2006 and is one of the largest supporters, as this partnership 
has reached over 3,500 new HIV-positive mothers each month in 
South Africa, Lesotho, and Swaziland.
    Each of these examples demonstrates how actors in the 
public and private sectors drive innovative solutions to 
address some of the world's most pressing global health issues 
affecting women and children. These partnerships all call for a 
shared vision, strategic thinking, and collaboration to be 
successful. Healthy partnerships leverage the unique skills 
that each partner brings to the table to effect change.
    We believe the best value comes when the United Nations and 
other governmental bodies involve the private sector to 
catalyze efforts and when the private sector leverages 
governmental investments. We see this in our engagement with 
the United Nations and other stakeholders, including the U.S. 
Government, on health literacy initiatives.
    And, Mr. Chairman, health literacy is something not only 
heralded domestically in the United States in health reform and 
in the National Action Plan with HHS, but also led efforts in 
Missouri, with some of the great State innovations that 
Missouri is also sharing with the world and vice versa.
    We also believe that our efforts at Johnson & Johnson on 
global health diplomacy drive new ways of thinking that can 
help shape stronger, more sustainable approaches, benefiting 
mothers and fathers around the world.
    The recent resolution adopted by the United Nations General 
Assembly on prevention and control of noncommunicable diseases 
stresses the need for a multi-sectoral response also to combat 
noncommunicable diseases. In this resolution, the U.N. 
recognizes the enormous human suffering caused by 
noncommunicable diseases, such as cardiovascular diseases, 
cancers, chronic respiratory diseases, and diabetes, and the 
threat they pose to the achievement of the MDGs.
    We see this challenge of noncommunicable diseases and 
support the multi-sectoral input currently being developed by 
the United Nations and the World Health Organization. Johnson & 
Johnson represents the pharmaceutical industry with our seat on 
the World Health Organization's NCDNet, a global 
noncommunicable disease network developed.
    We also further contribute with our leadership through the 
World Economic Forum, chairing the chronic disease and wellness 
activities. The World Economic Forum has designated the threat 
of noncommunicable diseases to economic and health and 
wellbeing. And we also now welcome more engagement with the 
U.S. Government, the U.N., and other interested parties in this 
effort.
    The U.N. joint plan of action for women and children's 
health offers renewed hope for the future, as the varied 
participants explore ways to build upon, revitalize, and secure 
new commitments from a range of influential partners, as well 
as provide organization and accountability for delivery at the 
highest level. During the formative stages, participants agree 
that this joint action plan should focus on increased political 
commitment and accountability, integrated delivery, and 
enhanced financing for women and children's health.
    In conclusion, I would like to remind, as we believe, that 
global health and development are too important to relegate to 
any one group. Congress has an important opportunity to support 
and encourage more public-private partnerships in health 
literacy, in maternal and child health, and other related areas 
that could help address the Millennium Development Goals.
    Additionally, it is critically important to foster public-
private partnerships that build more integrated program 
offerings that focus less on trying to solve just one issue and 
more on holistic approaches to address the many challenges 
facing women and children in resource-poor settings.
    Thank you very much.
    [The prepared statement of Dr. Ratzan follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you.
    And, finally, I would like to recognize Mr. James Roberts 
for 5 minutes.

 STATEMENT OF MR. JAMES ROBERTS, RESEARCH FELLOW FOR ECONOMIC 
          FREEDOM AND GROWTH, THE HERITAGE FOUNDATION

    Mr. Roberts. Thank you, Mr. Chairman, and thank you, Mr. 
Ranking Member, for this opportunity to appear before your 
subcommittee.
    In my opinion, Congress should reject approval of future 
taxpayer-funded U.S. Government official development assistance 
programs, or ODA, that are designed to achieve the U.N. MDGs.
    I should note at the outset, I do not include emergency and 
humanitarian assistance in my critique of ODA. I would also 
like to compliment the significant positive role in development 
played by private charities and faith-based groups.
    No one disputes the desirability of MDG goals, but there is 
significant disagreement about the best approach to achieve 
them. In my opinion, the U.N. programs will fail to achieve 
their objectives. If Congress continues to fund them, the only 
certainty is that they will further enrich corrupt elites in 
developing countries and they will provide continuing 
employment for a cadre of development assistance bureaucrats 
and other professionals who are advancing them.
    Increasingly, experts in the developing world, such as 
Dambisa Moya of Zambia, who wrote a book recently called ``Debt 
Aid,'' are voicing opposition to ODA. They know from firsthand 
experience that 50-plus years of foreign aid from OECD 
countries, totaling anywhere from $1.6 trillion to $2 trillion, 
depending on who your source is, has only strengthened corrupt 
elites, encouraged morally corrosive cultures of corruption, 
discouraged private and foreign and domestic investment, and 
actually contributed to a rise in poverty rates because of the 
expanded level of nonproductive government spending and the 
welfare-dependency mindset that that encourages.
    One has only to drive 50 miles or so beyond the Beltway in 
Washington for evidence of the massive government stimulus 
spending in the United States in recent years and its failure. 
Although it has been a boon to public-sector unions, it has 
failed to help the average American to achieve his or her own 
set of MDGs. So why should anyone expect U.S. Government 
deficit-financed development assistance programs that emphasize 
welfare-state redistribution solutions and dependency to be any 
more successful in other countries? This is especially true at 
a time of unthinkably large U.S. deficits, as Congressman 
Rohrabacher mentioned.
    A Swedish development economist, Fredrik Segerfeldt, has 
noted the failure to lift people out of poverty and has 
analyzed the reasons why. And his conclusion--and we share it 
at Heritage--is that these problems of development in these 
countries simply cannot be solved by foreign aid. Only economic 
growth can rescue the poor and extremely poor, and that growth 
cannot be generated by statist development assistance programs 
that center on an ever-expanding welfare state and 
redistribution.
    Segerfeldt points out, for example, in 1962, GDP per capita 
in East Asia and in sub-Saharan Africa was roughly the same. By 
2005, the poverty rate in East Asia had been dramatically 
reduced, while in sub-Saharan Africa it was more or less 
unchanged. The difference? China, South Korea, the so-called 
Asia Tigers, other countries in East Asia generally did not 
follow the western development assistance model. They preferred 
to stimulate growth through investment and export. Meanwhile, 
countries in the sub-Saharan Africa have become increasingly 
dependent on ODA.
    Development assistance proponents push the MDGs, and they 
downplay extensive evidence that growth, not aid, provides the 
exit from the poverty trap. For evidence, look no further than 
the U.N. Millennium Declaration, which the U.N. Development 
Programme purports to be the gold standard of development 
assistance policy prescriptions. It does not contain a single 
reference to economic growth.
    Only fundamental changes in a country's culture and 
political philosophy by its own citizens can accomplish these 
necessary changes. It is not just formal institutions of a 
government in developing countries but the informal customs 
governing day-to-day business transactions that must be 
reformed. And that can only by accomplished by people living 
there. The U.S. taxpayers should not be put on the hook for 
that.
    If a country's culture and practices are steeped in 
corruption and cronyism, no amount of aid will overcome it. In 
fact, ODA actually degrades these formal and informal 
institutions the longer it exists, because it tends to 
perpetuate corrupt regimes that can hang on to power by using 
the assistance flows.
    It is instructive to look at the countries where the 
Millennium Development Goals have actually been realized most 
fully in the history of the world, and that would be in the 
developed countries with high levels of economic freedom and 
low levels of corruption.
    And, of course, as you mentioned, Mr. Chairman, I work on 
the ``Index of Economic Freedom,'' which annually analyzes 
these core principles: Rule of law, secure property rights, 
limited government, taxes as low as possible, efforts to 
encourage and bolster free markets, entrepreneurship, 
democratic governance, political stability, and the resulting 
prosperity. According to our index, countries with greater 
improvements in economic freedom achieve much higher reductions 
in poverty.
    As you mentioned, Mr. Chairman, the deficit is a major 
concern. And no one is going to be deluded into thinking that 
even if the entire U.S. foreign assistance budget were 
eliminated--and I don't recommend that--it would not solve our 
deficit problem. But most of it should be eliminated, on 
principle. I would make an exception, certainly, for direct, 
short-term U.S. national security goals that should be tackled 
by joint U.S. military and civilian agency teams. But, other 
than that, and there may be a few other exceptions, I think, 
actually, that development assistance policies have been a 
block to growth and to lifting people out of poverty.
    The best thing the United States can do right now to help 
the developing world is to get its own financial house in order 
and regain its status as a role model for developing countries. 
Take the lead among OECD countries to end ineffective ODA 
programs. Instead, encourage more trade and investment, for 
example, by approving the pending free trade agreements with 
Panama, Colombia, and South Korea, and negotiating more.
    That will make more capital available to the private sector 
and spur a renewed level of economic growth in the U.S. and 
globally. That is the best model for sustainable development: 
Through economic growth.
    Thank you very much.
    [The prepared statement of Mr. Roberts follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you.
    I appreciate our panel and all of your diverse backgrounds 
and opinions. I think we have covered a lot here.
    But I am going to start with recognizing myself for 5 
minutes of questions. And I want to start out asking each of 
you, as has been mentioned in various forums, about the 
security and economic connection to these goals. And I know you 
quoted Secretary Gates, but I would like each of you to talk 
about that and also the third component, how this helps 
leverage other aid.
    I also like the comment that was made that this was too big 
for any one group to do on its own. I think that is an 
important theme here.
    But if you could each address that, and I will start with 
Ms. Calvin.
    Ms. Calvin. Thank you.
    I believe Secretary Gates had it exactly right when he made 
that critical connection between ensuring that there are 
peaceful and conflict-free areas in the world where we can help 
nations grow to their full potential and their citizens live to 
their full potential and to become eventually some customers 
and clients of U.S. companies.
    But I think the most important thing here is the 
recognition that people around the world are all of equal value 
and that we need to address that basic core instinct that 
Americans have. Once we make a nation have access to the health 
and other benefits that we are talking about here, we know that 
we can encourage the keeping of girls and other young people in 
school, which leads to long-term security and stability in a 
country. A lot of the work that the U.S. ODA is already doing 
is in the area of democracy-building and rule of law, and we 
know that those two things then work hand in hand.
    And it is important to recognize that so much of ODA is 
currently not even in the areas that my colleagues have talked 
about. Even though it has been increased in recent years around 
AIDS treatment and other areas, it has been a full panoply of 
supporting the economic growth of these countries in lots of 
different ways. And the most important way we can help a 
country grow economically is to make sure that its citizens are 
educated and have health.
    Mr. Carnahan. Dr. McArthur?
    Mr. McArthur. Thank you, Mr. Chairman. These are terrific 
questions. And I would just start by saying that I think 
official development assistance and aid often is very broadly 
misunderstood as a charitable endeavor. There certainly are 
humanitarian emergencies which require that form of logic, but 
what we are really talking about here is investments, and 
investments in very specific and practical programs and 
targets.
    If we even look at the challenge of economic growth for the 
poorest countries and communities in the world, the majority of 
them are farmers. Economic growth to a farmer means growing a 
better crop, literally. And so, when we are talking about 
agriculture, for example, and support for agriculture, that has 
a double dividend of both tackling hunger and promoting 
economic growth.
    Now, Malawi is a very important example. Malawi supported, 
with international--the President, Mutharika, put forward a 
program to make sure that every small farmer in Malawi got 
access to a bag of fertilizer and a can of seeds. You couldn't 
think of anything more simple and straightforward. This was 
only made possible because of international support. That 
program then doubled the country's food production, and, in 
2008, when the global economy was imploding, Malawi grew at 9 
percent.
    So the economic dividend is very important. And the fact 
that agriculture has basically missing from the international 
agenda for a generation is, in my view, one of the deepest 
reasons why we haven't seen more direct links between foreign 
aid and growth.
    Now, we certainly need the longer-term support for 
education and health, as well, which will undoubtedly affect 
growth in the medium and longer term where the programs are 
successful, because children that survive and are better 
educated will be very active economic players. And even higher 
child survival is linked to lower fertility rates, which is 
part of managing a demographic transition where we have the 
fastest-growing populations in the poorest countries. The 
greatest, you know, risks of instability are also in those poor 
countries. And we don't just have to think about these 
countries as islands because they are very much part of the 
connected world.
    Now, if we look at the evidence, which is quite strong and 
in the top journals, the risk of conflict, civil conflict, is 
much higher at lower levels of income per capita. Many of the 
places that we read about in the newspaper every day, which are 
our direct security interests, also happen to be those places.
    There is an extra overlay, which is the climate issue. The 
top research now shows that risk of climate, whether it is 
temperature, whether it is rainfall variation, especially in 
Africa, is directly linked statistically to the onset of 
conflict and domestic conflict. And the logic is quite 
straightforward: When the rains fail or the temperature is too 
high, the crops fail, and hungry people are ultimately more 
likely to fight. And we have a whole drylands issue throughout 
the Sahel, where these are also the hot-button security places 
that we are worried about on all sides of our foreign policy.
    So we need to understand that there is a direct effect on 
health and delivery targets and education and infrastructure. 
We also need to understand that aid can go, and must go, 
directly to supporting the productive sectors. And that won't 
just help these countries escape from aid and graduate from the 
need for support, but will also help them develop the robust, 
kind of economic and social capacity that will really be in our 
global long-term interest for stability.
    Mr. Carnahan. Thank you.
    Dr. Ratzan?
    Mr. Ratzan. Thank you, Mr. Chairman.
    I think that is an excellent question that leads to what we 
encompass under global health diplomacy, notwithstanding the 
ideas of health as a bridge to peace, health with conflict 
resolution, but the idea that health investments are 
investments in wealth and economic wellbeing.
    And there are basically three areas where I think this 
makes the largest and best example: One is infectious disease, 
which has no borders; second, chronic disease, which continues 
to be a threat; and, thirdly, as you mentioned, mothers' 
education, or as we link it even more with health literacy in 
general.
    We looked at last year's risk report, which is done 
annually with the World Economic Forum that goes to both 
private-sector groups as well as governments and throughout the 
world. And if you look at the risk report, it puts on one axis 
the potential or the likeliness of something to occur and on 
the other axis the threat that it is to society with economic 
wellbeing.
    And what is highest on that list are three health-related 
areas: Chronic disease, pandemics, and some of the threats that 
Dr. McArthur mentioned related to climate change. It is higher 
than some of the economic collapse items that are there, yet 
the world does not invest the same in the fundamentals of 
health and economic wellbeing to help prevent those risks.
    So what we are trying to do is integrate some of the 
activities that I mentioned. With tuberculosis, we cannot do 
this alone. Multiple-drug-resistant tuberculosis could come 
into the United States. It could threaten the world in a 
broader way. In areas that we have heard in the past of 
extremely drug-resistant tuberculosis, that has been a threat 
for communicable disease.
    Chronic disease, mostly, at this juncture, it tends to be 
diabetes, but notwithstanding tobacco use and the Framework 
Convention on Tobacco Control, another piece that was heralded 
by both the United Nations and World Health Organization, with 
their authority, where also countries could help make a 
difference in preventing cancer and prevent treatment for 
mortality, morbidity related to tobacco.
    And then thirdly, health literacy. United Nations 
resolution last year relating to health literacy can make a 
major difference in better health outcomes; has spearheaded 
efforts in China, with 66 indicators for health literacy; the 
United States national action plan, eight member states in 
Europe and other countries that are looking at ways that if we 
just educate and give people the knowledge and the skills and 
simplify the demands and complexity of the system, we can also 
have better health outcomes and better economic wellbeing.
    So those are the three areas that I think could help make a 
difference and really do link the overall security and economic 
connection to the MDGs.
    Mr. Carnahan. Okay.
    And Mr. Roberts?
    Mr. Roberts. Thank you.
    Since the end of the World War II, really the best ally and 
friend of people all over the world has been a strong United 
States--strong economically, diplomatically, and militarily. 
The United States has kept the air and sea lanes open, which 
has spurred globalization. And that globalization, that 
investment in trade, has been what has really helped people and 
lifted them out of poverty. And it has been hundreds of 
millions of people, as I am sure no one would disagree with. 
And those flows, the investment in trade flows dwarf a combined 
ODA of the whole world, as you also know.
    But the biggest threat right now to the United States' 
national security are the deficits in this country that could 
lead to our financial ruin. Cutting ODA will be only one of 
probably thousands of budget and spending cuts, difficult and 
painful, that Congress will likely have to confront in order to 
restore U.S. economic prosperity.
    Thank you.
    Mr. Carnahan. Thank you.
    Now I would like to recognize our ranking member, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    How much is it that you think that we should be spending 
that we are not spending?
    I mean, Dr. McArthur, you were relatively hard on your 
country here, in terms of ``We are not doing our''--so what 
level of spending are we at now, and what would you want us to 
spend at?
    Mr. McArthur. The international commitment is to 0.7 
percent.
    Mr. Rohrabacher. No, no, no, no, the actual amount. I mean, 
I am not talking about--I understand it is a percentage of your 
economy. No. How much do we spend now? How much do you want us 
to spend?
    Mr. McArthur. Right. So the numbers would be--current 
development assistance is on the order of $30 billion. I can 
get the specifics.
    Mr. Rohrabacher. Okay. So, currently, we spend $30 billion.
    Mr. McArthur. Right.
    Mr. Rohrabacher. And you would want us to spend?
    Mr. McArthur. It would be closer to $100 billion.
    Mr. Rohrabacher. Closer to $100 billion. Okay.
    And when you are talking about our contribution to the 
world, you are not including some of the things Mr. Roberts was 
alluding to, that we send our military forces throughout the 
world in order to prevent conflicts from overwhelming regions.
    Mr. McArthur. I should clarify, those are----
    Mr. Rohrabacher. Because we spent $1 trillion in Iraq.
    Mr. McArthur. Right.
    Mr. Rohrabacher. Okay. And we are spending, you know, 
hundreds of billions of dollars in Afghanistan. And you don't 
count that, really, as a contribution. You think it has to be 
in the form of grain seed.
    Mr. McArthur. That is not what I said, Congressman, excuse 
me.
    Mr. Rohrabacher. Okay.
    Mr. McArthur. Just to clarify, I think we are talking about 
complementary strategies. And so that is why I think the 
testimony of Secretary Gates is so important, because we are 
talking about both security and development and development for 
security. The reality is that there is about a 30:1 ratio of 
the military expenditures to the development expenditures.
    No one is questioning the importance of the defense 
spending; far from it. What we are talking about----
    Mr. Rohrabacher. Yeah. I read Secretary Gates's remarks, 
and let me just note, it does exemplify the difference in 
approach that people, honest people, have----
    Mr. McArthur. Right.
    Mr. Rohrabacher [continuing]. In terms of how to find 
prosperity and peace in the world.
    I think that Secretary Gates does not fully and other 
people have not fully understood that Adolph Hitler came from a 
developed country, the communists who were in power generally 
came from upper-middle-income families and upper-income 
families, and the radical Islamic movement today is not fed on 
poverty but instead on fanaticism that is being financed by 
some of the wealthiest groups of people on the planet. And so I 
would disagree with him that poverty leads to this type of 
national security challenges that we face today.
    Now, we can still believe that it is the humanitarian 
responsibility of people who have been blessed to live in free 
societies and have prosperity to help those in less free 
societies. I disagree with them as that is a strategy for a 
more peaceful world.
    Let me just go back--and, with all due respect, Doctor, the 
idea that you presented, this image of, well, what they really 
need is a sack of fertilizer, is probably the most naive 
approach that leads to the waste of huge amounts of money that 
should be going to improve people's lives.
    Frankly, that a sack of fertilizer in most of these 
developing countries will lead--even if it leads to a little 
bit more production by that farmer, no, it is not growing a 
better crop. It happens to be also that people are taking 
bribes and demanding bribes from that farmer; the people who 
are stealing from that farmer legally and illegally; the lack 
of transportation because the money in that country, instead of 
going to transportation, has gone into the pockets of corrupt 
officials; the fact that they don't have clean water because 
those same corrupt officials have pocketed that money. No, it 
is not a sack of fertilizer.
    And until we begin realizing that those type of problems, 
which Mr. Robertsoutlined, those things have more to do with 
the poverty than does the lack of sack of fertilizer. And from 
$30 billion to $100 billion may provide more fertilizer for 
those farmers at our expense, at the expense of our kids here--
we are going to borrow that extra $70 billion, we are going to 
borrow it from China in order to help these people. And I would 
submit to you that that will not improve the life of those 
people that you are intending it to and will actually bring 
down the quality of life of our own people.
    Let me ask you this. About the people who run these 
programs, we are talking about--by the way, let me congratulate 
anybody around the world, anybody personally and anyone here 
domestically, who is engaged in helping other people with their 
own resources. And George Soros is a mixed bag. I mean, George 
Soros manipulated the currency in various developing countries, 
impoverishing certain people in those countries, but at the 
same time he has been a great contributor to various 
humanitarian causes. And I realize there is--when you are 
talking about him, but Ted Turner has done some wonderful 
things. The Bill Gates Foundation has done some wonderful 
things. We applaud their activity, especially if they are doing 
it unilaterally, on their own, going out and trying to make 
their money count.
    But when we are talking about these joint programs, how 
much money goes into administration? For example, someone who 
runs some of the programs that you are talking about, do they 
make more money than a congressman makes? How much money do 
they make? Do they make over $100,000 a year? Should we set a 
cap on any organization that we are in a partnership with that 
they won't be paying their executives a certain amount of 
money?
    So what about the pay level of the people who may just be 
sucking off that money that should be going into fertilizer for 
that farmer in Africa?
    Mr. McArthur. I am very glad you raised these points, so 
thank you.
    And I would say, first of all, no one is advocating money 
for process, and no one is advocating a penny go to corruption. 
And that has to be very clear. This is about results and 
direct, auditable, monitorable, deliverable targets that you 
can do a spot-check on to make sure it is happening where it 
should.
    That has been the great success, I would say, of the 
President's Emergency Program for AIDS Relief, which the 
Congress had played such a crucial role on, as it was about 
actually making sure that those people get the antiretroviral 
medicines. And this was deemed, less than a decade ago, as you 
know, I am sure, much better than me, impossible. And now we 
have 5 million people on AIDS treatment, thanks to a 
breakthrough program where it was about auditable results and 
delivery metrics.
    For fertilizer and so forth, I actually, with utmost 
respect, have a different read on history, where throughout 
Asia, going back to Korea in the 1930s, Taiwan in the 1920s, 
India and Pakistan in the 1960s, every single case of economic 
takeoff that wasn't about discovering a mine was linked to 
strong public support, public investments in agriculture, in 
smallholder agriculture.
    Norman Borlaug, the Nobel laureate who won the Presidential 
Medal of Freedom, was the great leader, with M.S. Swaminathan, 
around India at making sure, literally, that farmers got 
fertilizer and seed. Literally, that was the program. So, with 
utmost respect, I don't think it is a naive view; I believe it 
is a practical view, linked to actually what is the 
monitorable, auditable program delivery target. And, in Malawi, 
the government has used a voucher system, with even biometrics 
in place, to make sure this is an efficient system. And that 
has been a breakthrough in a country that was previously 
considered the perfect storm of disasters.
    So I think we need to have a very hardheaded approach. And, 
with full candor, I used to write the Global Competitiveness 
Report, I am a macroeconomist, I believe in economic growth as 
much as anyone. But what I am supporting is a view that thinks 
through: What are the investments required to support robust, 
long-term economic growth in the poorest countries while 
solving the practical problems?
    I believe that we have to be focusing on programs first, 
direct commodities. We have to be using local staff. This is 
not about armies of aid workers going from the rich countries; 
this is about local programs. In the Millennium Village 
project, all of these staff in Africa are African. And that is 
a very crucial component of our work, because there is so much 
expertise that just needs to be empowered by tools.
    I was in Tanzania a few weeks ago, and I was with a farmer 
who had 6 years of primary school education, who was a 
community health worker, with a cell phone treating malaria in 
front of my eyes with new technologies. This is something that 
would never have been possible if it weren't for the 
Presidential Malaria Initiative or The Global Fund to make 
malaria treatment possible.
    Mr. Rohrabacher. Thank you very much. I think my time has 
about expired. But let me note that we still have a 
disagreement, but it was a good comeback.
    Mr. McArthur. Thank you.
    Mr. Rohrabacher. And I will also note that malaria--I mean, 
what has been said about malaria today, it hasn't escaped many 
of us that when you get involved with these global projects and 
government programs, that the politically correct attitudes on 
things tend to take hold. And many of us believe that the 
malaria epidemic that we are facing now can be traced right 
back to the politically correct science of eliminating DDT, 
which, once it was eliminated by people who have these 
politically correct notions, we saw a massive increase in the 
death of children in Africa.
    And so we are talking about millions of children here who 
have lost their lives by people who, of course, are part of 
this very benevolent approach but mindset, liberal mindset, 
that has outlawed DDT in order to protect the thickness of bird 
shells--yes.
    Thank you very much.
    Mr. Carnahan. I certainly enjoy the debate and discussion 
and give-and-take of this committee. I thank the gentleman and 
thank our witnesses.
    I want to talk about a success that has been mentioned here 
with regard to the Global Polio Eradication Initiative and the 
work that has been done with Rotary International, WHO, CDC, 
and UNICEF.
    If you can comment on the success of that program that has 
seen polio plummet 99 percent since 1988 and what is needed to 
make that final push in the four remaining endemic countries--
Afghanistan, India, Nigeria, Pakistan. And, finally, what 
lessons can we learn from that program that we can apply to 
some of these others that are just really getting started?
    And I am going to reverse the order this time and start 
with Mr. Roberts.
    Mr. Roberts. I would have to do some research on some of 
the specifics. I would refer the committee to the many 
scholarly works of Professor William Easterly at NYU, who is 
probably one of the best, most solid, robust economists who has 
written critically about these issues.
    I would also note just in passing that the PEPFAR is a good 
example of a program that worked well. And I think it did 
because it was private money and it was private corporate 
management methods that were brought into the government and it 
was fenced off from the rest of the government. And I think 
that that is--it was a good example of a program that worked. 
Although, as I have mentioned in my testimony, we have to make 
very difficult choices because of the budgetary reality we 
face.
    Thank you, sir.
    Mr. Carnahan. Thank you.
    Dr. Ratzan?
    Mr. Ratzan. Thank you, Mr. Chairman. That is a very 
important question and something that, unfortunately, we have 
been unable to end polio in the last century.
    And, ironically, I also edit the Journal of Health 
Communication, and we just did a whole supplement----
    Mr. Carnahan. Is there anything you don't do?
    Mr. Ratzan. Thanks. We did a whole supplement with USAID 
and George Washington University Global Health on polio 
communication and what are the final challenges, to answer that 
question directly.
    And I can't summarize the hundred pages from experts in a 
peer-reviewed publication. But what I can say is that some of 
the fundamental areas that would help make a difference would 
be better communication--and, most particularly, this is 
political-level communication--to get the leadership and 
community-based leaders able to understand the value of the 
polio vaccination. And that has been a very large challenge, 
not only with the anti-vaccine lobby, frankly, here in the 
United States, but really globally, the whole idea of vaccines 
making a difference in the challenge are continuing to be not 
only for polio but for other vaccine-preventible illnesses.
    And then finally I think--and I do believe that the work at 
USAID and others have been quite successful in working in this 
public-private partnership. But we need to continue to support 
to end polio. And part of that, again, is both political 
communication as well as efforts on the ground with community-
based efforts.
    Mr. Carnahan. Thank you.
    Dr. McArthur?
    Mr. McArthur. I am not an expert on polio, but I can say, 
the general lesson on that program and others is that you have 
a few basic steps that come together. One is you have 
implementation of known technologies. The vaccine is very 
important. Two is you have developing-country-driven national 
implementation strategies. That developing-country ownership is 
central--and accountability.
    Third is that you have those national strategies regularly 
and rigorously evaluated through independent technical review. 
Fourth is that those programs are driven by a clear emphasis on 
performance metrics, so there are delivery targets that 
everyone is accountable for.
    And then, fifth, they have adequate finance through, in 
this instance, a blend of public and private sectors. But we 
can't expect these programs to be implemented in the absence of 
adequate finance. And so the dollars are not about throwing 
dollars; they are about funding very practical mechanisms.
    Mr. Carnahan. Ms. Calvin?
    Ms. Calvin. I would be happy to add a few lessons.
    The U.N. Foundation has been involved in the fight against 
polio since its inception. But, you know, really, the Rotary 
International deserves the largest credit here for jumping on 
this in 1988 with the World Health Organization.
    I would say the most important thing that was done 
initially was that a goal was set and that the world rallied 
around it, following on the success of smallpox elimination, 
which, prior to polio, was the only major disease ever 
eliminated in the United States, in the world.
    Second, an infrastructure was built that we have since 
built upon to eliminate measles and other diseases, and to 
build a health systems infrastructure that now works in the 
countries where polio is done.
    And third, because it was public and private, Rotary showed 
it is not just the money that they could raise in this country 
and around the world--and they have raised over $600 million--
but it is that they use their volunteers around the world to 
help deliver the vaccine. And that made a huge difference.
    The hurdles have been cultural. At some point, if someone 
went to the annual pilgrimage and exposed others at the Hajj to 
polio, and Saudi Arabia responded by having a rule now that you 
can't come to the Hajj unless you have had polio vaccination. 
And they have stepped up to help eliminate it in the Muslim 
areas where it has been endemic. We need every country to 
realize how important it is that we reach this goal. And we see 
that, in the countries where it is still endemic, which tend to 
have largely Muslim populations, the religious leaders have 
been both initially the problem and now are helping us get to 
that final stage.
    We think we will get there. It has taken also some efforts 
to refresh the campaign. And the Gates Foundation most recently 
stepped in to really make this a major effort and initiative of 
theirs, making this point that the public-private partnership 
is what really multiplies the impact of U.S. money.
    And the U.S. has been the biggest donor in this space, and 
I would say this is an investment well worth making.
    Mr. Carnahan. Thank you.
    Mr. Rohrabacher?
    Mr. Rohrabacher. I didn't quite get the--we covered some of 
the other areas of my question, so I didn't quite get to the 
salaries of people.
    Should we have a cap on salaries for people? But private 
institutions, if they want to pay their people $250,000, 
$300,000 a year, that is their business, as long as they are 
doing that independently of government. But if you have an 
institution that is in partnership with government, should we 
not have a cap on salaries for these charitable institutions so 
that the people there are not making more than their 
counterparts in government?
    Ms. Calvin. Well, I don't believe in a cap, myself. I 
believe in disclosure, I believe in measurement and 
accountability, and I believe in reform.
    And I think part of what USAID should be all about is 
making sure that our investments around the world are done in 
the best possible fashion. I think it is important that we are 
doing the Foreign Assistance Act to look at that. I don't think 
a cap is necessarily the right solution in every case, because 
I don't even know how you would pick it.
    Mr. Rohrabacher. Okay, so you don't believe that we should 
have a--if the government is going to go into a partnership 
with a private organization, that we should require that that 
private organization does not consume its resources on salaries 
for its top executives at a level that is higher than what you 
find in the government.
    Ms. Calvin. Oh, I agree with what you are saying. I just 
don't know if a cap is the right answer to that. I think that 
absolutely should be one of the judgment measurements.
    Mr. Rohrabacher. So you are against that.
    Dr. McArthur?
    Mr. McArthur. Are you referring to organizations in the 
advanced countries or in the local economy?
    Mr. Rohrabacher. I am talking about people where we have 
been talking about partnerships between private groups and 
government, at our level and at international level. Should 
there be a cap on the pay levels of those private organizations 
if, indeed, they are going into this partnership?
    And, by the way, if they aren't in a partnership, they can 
pay whatever they darn well want. But if we are talking about 
partnership here today, if that is what you are advocating, 
would you advocate that we put a cap on the salaries of those 
top people in those organizations so that they aren't making 
more money than their government counterparts?
    Mr. McArthur. It is a question I don't have a specific 
answer to. I would say----
    Mr. Rohrabacher. Your answer is no. If you don't have a 
specific answer, it is no. Because this is a policy, and so, if 
you are not for it, that means you are not for the policy.
    Mr. McArthur. Well, I would be happy to follow up with you 
on it to think through all the mechanics of what it could 
include, because I think it is a very important question. I 
have spent a lot of time thinking about what different salary 
scales could look like based on value for money. And whether it 
is hiring a community health worker who is a farmer part-time 
in a village, whether it is a Ph.D. working in rural Africa who 
is a local African Ph.D.----
    Mr. Rohrabacher. I am actually talking more about your 
organizations, not the guys down in Africa. I am saying, should 
people who work for--if the Turner Foundation and other groups 
that are in private sector here are going to be partners with 
the U.S. Government, should we expect that the money that they 
are consuming as part of that charitable operation not be 
consumed via top-level salaries as compared to--and the 
standard you would use would be their counterparts in the 
public sector.
    Mr. McArthur. Right. So I would say to that that any public 
funding that goes through a partner organization, it makes good 
sense to me that that be aligned with U.S. Government salary 
pay scales. If it is a privately funded organization where 
private supporters want to pay at their discretion----
    Mr. Rohrabacher. I understand. But you are----
    Mr. McArthur. I am dividing it. I am segmenting the 
problem.
    Mr. Rohrabacher. Yeah, yeah, right. The fact is that if you 
are in a partnership, you are--that the program--your programs 
are tied. And I am just saying, if you are going to tie your 
programs, should we not also tie how much money is being 
consumed for upper-level salaries?
    Doctor, what would you say?
    And by the way, let me just note, I commended the Turner 
Foundation and others. I forgot to say Johnson and Johnson 
Foundation. Because you guys are doing terrific work, and you 
can be proud of the good things that your company and the 
foundation of Johnson and Johnson has been doing. You have 
expressed that today, and we have heard that, and that is 
wonderful. So, pardon me for not adding you on the list of 
people to commend.
    Mr. Ratzan. Thank you very much, Congressman Rohrabacher.
    In response to your question, I think we have to look at 
this very broad issue of how health care and health services 
are delivered throughout the world. And, frankly, a lot of it 
is delivered through the private sector. So the partnership 
might be, in some cases, public funding and private-sector 
delivery; other cases, it is private-sector funding and then 
public-sector interventions and research and so forth.
    So there is no one solution that exists. And we are always 
seeking out the best-quality people and resources throughout 
the world. And, with that, you know, free-market activities 
clearly are in place.
    Mr. Rohrabacher. So let's get down to the basic question. 
If you are in a partnership, if you have a private foundation 
or whatever it is in partnership, as we are advocating today, 
as a joint effort with government, should the government put a 
cap in saying, ``We are not going to be in partnership with a 
charitable organization that pays its top-level executives more 
than their government counterparts''?
    Mr. Ratzan. We don't get into the governance nor a litmus 
test of partnerships based upon funding at that level, so we 
would not advocate for that.
    Mr. Rohrabacher. Okay. But we do actually take a look. The 
government does say, ``Well, here is a foundation that is 
spending 90 percent of its money'' or 75 percent or whatever, 
``they are consuming it among their own executives; thus, we 
are not going to get in a partnership with them,'' I am sure 
that happens. So that has been a no, as well.
    Now, Mr. Roberts.
    Mr. Roberts. Well, Congressman, it might not come as a 
surprise to you that I would say, yes, that they would have to 
be bound. And I think your point--and I am sure you know this 
better than I--that what you are illustrating is a larger 
problem and real threat and danger, and that is of a creeping 
cronyism, of a state corporatism that we are seeing with these 
public-private ideas, a corporate social responsibility. It is 
really the government trying to take over, in a sense, these 
assets that are privately held that belong to shareholders.
    And so, of course, we oppose that at Heritage, as you 
would----
    Mr. Rohrabacher. Okay. Let me just note, and I know my time 
has been used up here, but just a little story that really 
indicates why I think this thing.
    Years ago, when I was 19, I spent some time with some 
projects in Vietnam. And it was a long time ago, different 
life. And I had been up in the central highlands, and I was 
really, you know, just a long way from home. And I was taking a 
flight to Bangkok, and I met a guy on the airplane, and he 
said, ``Hey, where are you coming from?'' And I told him I was 
up there with the Montagnards and all this stuff, and he said, 
``Well, you know, my wife''--he is American. He said, ``My wife 
actually can cook a great American meal. Would you like to come 
over for some meatloaf at my house?'' Oh, yes, that is 
terrific, okay, I would love to have it.
    So I went over to--this guy was the head of UNICEF, I think 
it was, okay, in Bangkok. So I said, ``Well, we will catch a 
cab,'' and he said, ``Oh, no, no, no, I have a car.'' Oh, he 
had a car. He had a car, he had a driver, and it was a big car. 
So we got in the car, and we went to his--not his little 
house--his huge house with the fence around it and the 
servants.
    And then--look, I am sure he is a wonderful guy. And the 
money that was going for these children's activities in 
Thailand, I am sure he took his job seriously. But he was 
consuming a lot of that money himself. And he had a driver, he 
had a doorman, he had a cook, he had a housekeeper, he had a 
big house.
    And when we went in, in the middle of the meal, he says, 
``You know, how would you guys like some good whiskey?'' I 
said, well, all right. You know, I had been drinking this rice 
wine they have up where the Montagnards--in the central 
highlands. So, yeah, good whiskey, all right.
    He says, ``Come with me.'' And he grabbed me by the arm, 
and we went out into the garage. And there were all these cases 
in the garage. And they were these boxes, these boxes made out 
of wood, and they had ``children's books,'' ``UNICEF children's 
books,'' on the side of it. And he grabbed one, said, ``Help me 
down with this.'' And he opened it up, and it was filled with 
whiskey.
    Now, all I am saying is that, you know, if we don't watch 
out, the people who are actually running the programs in a lot 
of these areas, what we have found is that a lot of the times 
people come in and they say, ``Well, we spent this much money 
in this area,'' it has really been consumed by the management 
of the organization. And you have to pay attention to that.
    If we really are serious and we want to help people, you 
can't just sit here and say, ``We really have to raise the 
money from $30 billion to $100 billion.'' That may not make any 
impact at all, except at the debt level of these young people 
who are in the audience.
    And we have to have the courage to look at things and 
especially have the courage to say, yeah, I don't think we 
should pay people--if this is going to be a charitable 
operation, those involved should be contributing to that 
charitable operation by actually receiving less pay than they 
would if they went into another endeavor. That is their 
contribution.
    Thank you, Mr. Chairman.
    Mr. Carnahan. Thank you.
    And I want to go on to another tack. And I guess I would 
like to ask the witnesses: With the 5 years left to achieve the 
MDGs, certainly we can all make the case that all of them are 
critically important. But given our limited time and limited 
resources, I would like to ask you to prioritize what you think 
would be the most critical and the most achievable in these 
remaining 5 years.
    Ms. Calvin, let's start with you.
    Ms. Calvin. Well, I will pick up on the last conversation 
to say, not only do we need more money for all of this work, 
but we need to get more for our money. So, more health for the 
money I think is the mission and the goal for the next 5 years.
    Vaccine interventions are probably going to be one of the 
most important pieces of that. We know that with vaccine 
interventions we can prevent 8 million more deaths between now 
and 2020. So, anything we can do to encourage the research and 
development, distribution, and uptake on vaccinations and 
immunizations around the world is critical.
    Second, I would say a focus on women and girls--which, Mr. 
Chairman, I know you did a hearing on this just a few weeks 
ago--is essential. I think we have all learned that if you can 
keep a girl in school, if you can prevent her from marrying too 
early, if you can give her the opportunity to structure and 
create her own life, you have not only impacted her and her 
family but also her whole village. And so I think a whole focus 
and a lens looking at ensuring that women and girls, and 
particularly adolescent girls, are taken care of is essential.
    Third, I think we need to look at all of the goals in an 
integrated fashion. The goals were set up as eight individual 
goals, but, to some degree, they work most effectively and 
countries and public-private partnerships will work most 
effectively if we can integrate our approaches and, again, get 
the most for our money.
    Fourth, I would say technology and the use of new modern 
technologies, whether it is mobile phones or others, is 
essential. And we have been negligent, not using that and 
thinking that we needed investments financially. There are many 
innovative solutions that ought to be taken forward, and we 
would encourage that.
    Finally, goal 8 is something that we don't talk about as 
often as we talk about 1 through 7, and that is the one that 
has to do with trade and debt. And I think it is as important 
for this country to focus on those issues and help other 
countries move forward economically if we can.
    And fifth, I think, as Dr. McArthur said, the Millennium 
Development Goals are not just the U.N.'S goals, not just 
America's goals, they are everyone's goals. So, to the degree 
that there is an approach to these goals that everyone can 
adopt--and I think that is why we have young people sitting in 
this room; they understand that these are the goals that will 
affect their future--that is the way we need to approach it.
    Thank you.
    Mr. Carnahan. Dr. McArthur?
    Mr. McArthur. Thank you, Mr. Chairman. It is a great 
question.
    I would just submit that we have to avoid false choices 
when thinking through the goals. Just like, in my view, we 
should not make false choices between development and security, 
we have to think of both together, we have to think of fiscal 
stability and investments for the medium and long term. The 
goals are holistic, not just as a package, but also because 
they are essentially for self-reinforcing activities.
    So if you want to cut child mortality, clean drinking water 
is crucial. If you want to cut maternal mortality, girls' 
education is crucial. And vice versa. So those are very much a 
package, which is why we have to be careful not to cherry-pick. 
I liken it to saying whether I want my heart, my lungs, my 
liver, or my brain. I actually think I need all of them to 
function as a human being. Economies and societies need health, 
education, food, infrastructure, and so forth.
    So I think the holistic underpinning of the goals is 
essential. But back to Congressman Rohrabacher's point, I think 
the goal-based element is crucial. This isn't about anything 
other than delivery targets, in the end. And every resource 
allocation should be linked to outcomes through action areas. 
And I think that is exactly the perfect logic for this.
    With all of those points in mind, if I were to pick the 
areas that I think could make the greatest breakthroughs in the 
next few years, remembering how many breakthroughs have 
happened in the past 10 years and 5 years that we all thought 
were--or many people thought were just too hard, I think in 
agriculture, again, this is an area where the world can make a 
tremendous breakthrough. Africa as a continent could basically 
double its food production within 5 years. This is an 
extraordinary biophysical reality that we have not yet got our 
heads around as a global community.
    We could have, second, a major breakthrough, I would say, 
in health systems and maternal health and child health, not by 
paying high salaries to people from rich countries, but by 
training millions of community health workers with very basic 
skills--it is called ``task shifting''--so that they can do the 
simple life-saving interventions, so that if that mother is 
about to deliver, they get to the clinic where that skilled 
birth attendant is. It is not just about the skilled birth 
attendant, but actually getting them to that skilled birth 
attendant if they are prepared to deliver at home.
    And then a third thing I would stress is the girls' 
education, and really emphasizing secondary education, which 
has so many transformative effects for health, for economic 
growth, for broader economic activity in a society.
    I don't want to say we don't need economic infrastructure, 
we don't need roads, we don't need ports, we don't need energy, 
because that is where the growth will come from. It will 
probably take a little longer for the international community 
to get its head around those systems that are needed--and also 
for water, which is technically probably the toughest problem 
because drinking water is only a small share of the uses of 
water. We are going have to have a lot better water systems for 
agriculture, for industrial use, and so forth.
    But those would be my general recommendations on how to 
think through the breakthroughs that can happen in the next 5 
years.
    Mr. Carnahan. Thank you.
    Dr. Ratzan?
    Mr. Ratzan. Thank you for the opportunity on this regard of 
what can be done.
    I think the previous witnesses have certainly talked about 
the holistic approach, and clearly that is necessary. And I 
know there is consideration with the Global Health Initiative 
of giving some flexibility for formation of public-private 
initiatives that could help address some of the areas that are 
both health-related, education-related, environment-related, 
and so forth.
    And when I look at the Millennium Development Goals, for 
example, Millennium Development Goal 1 on poverty and hunger, 
amongst that it has nutrition-related factors and deworming. 
Those, frankly, have not got the same level of partnerships as 
maybe infectious disease has in the past.
    Millennium Development Goal 2 of course dealing with 
education, again, the idea of health literacy, the opportunity 
to empower women and mothers and fathers and so forth to have 
the information and skills to demand appropriate health 
services and to get the--whether it be clean water or 
transference and choice of vaccines and so forth.
    Millennium Development 3, gender equality and empowerment--
clearly, that is quite important. Also with health areas in 
terms of HIV and giving women the opportunity, not only with 
microbicides but others, of preventing mother-to-child 
transmission. Child mortality obviously is broad and obviously 
a big emphasis that we have.
    HIV/AIDS, malaria, and other diseases, number six. I think 
we can make a difference in preventing mother-to-child 
transmission. And the charge that happened last week at the 
United Nations and WHO to eliminate this by 2015 is achievable 
if we put the right emphasis in funds and technical resources 
there, as well as helping foster the kind of research necessary 
for it.
    Amongst that I think we need to presage the next phase, 
post-2015, when we will have new interventions for HIV, such as 
preexposure prophylaxis, preventing HIV not just by choice of 
behaviors but also by having technological and medical 
interventions with new medicines that could be delivered. And 
similarly with tuberculosis, of being able to shorten whether 
it be course of therapy or also the transmission thereof.
    And then, finally, I think the last two, with whether it be 
environmental sustainability or trade and debt, these are very, 
very important, that we need to think about. That, again, 
infectious disease has no borders, and whether it be SARS, 
whether it be a swine or H1N1 or H5N1, whatever might be there, 
it is not if this happens, it is when it happens.
    And these require fundamental health systems that are 
functioning and in place and something where, while the United 
States has fundamentally been leading this with the Centers for 
Disease Control and Prevention and our epidemiologic service 
and so forth, we nonetheless also have to have the kind of 
fundamental health diplomacy that is the holistic approach of 
being able to work with both governments, with public health 
authorities, community health leaders and others to address 
future health scourges.
    So I would say, again, any investment in health is a wise 
investment. I think it will pay back not only United States but 
really, most importantly, the health of individuals and 
citizens throughout the world. And it is a positive opportunity 
to be able to speak and share this today. And hopefully we can 
continue to have this global investment.
    Mr. Carnahan. Okay. Thank you.
    Mr. Roberts?
    Mr. Roberts. Thank you, Mr. Chairman.
    I certainly don't want to minimize the suffering of the 
poor, but I do want to note that bureaucrats all over the world 
are always creating action-forcing--artificial action-forcing 
deadlines, such has this 5-year deadline. And I say that as a 
former bureaucrat myself. But I recall the Copenhagen climate 
change commitment and that deadline, with a drop-dead date last 
December. Well, all that went by the wayside when China and 
India refused to go along and, at the same time, the 
Climategate scandal broke.
    And so, I think we should solve these problems as quickly 
as we can and we are financially capable of doing. And, of 
course, I go back to the recommendations that were in my 
testimony for the best way to do it.
    Thank you.
    Mr. Carnahan. Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much.
    What we are talking about, basically, is providing a 
service to the world's poorest people and people who live in 
deprivation, and usually the deprivation coincides with the 
fact they also live under tyranny and under a corrupt 
government. Inoculations, clean water, deworming--all of these 
basically are services that should be provided by once's own 
government or should be provided with their local government 
working in coordination with private-sector groups, such as 
your own.
    If we provide the services, if these young people are 
burdened with more debt, especially if we end up borrowing the 
money to provide these services and then expect these young 
people to pay taxes on it for the rest of their lives in order 
to provide these services on an ongoing basis, doesn't this 
mean that, unless there is the reform that Mr. Roberts is 
talking about in their society, that as soon as we quit 
providing the services, the worms will come back and the 
diseases will come back and the dirty water will come back.
    Isn't that the case? Unless there is the reform he is 
talking about, no matter what we do temporarily to alleviate 
the current suffering, are we not just saddling our young 
people with this monstrous burden of debt in order just to 
provide something that is going to go right back to its bad 
state anyway? Is that not the case?
    Go right ahead.
    Ms. Calvin. Well, I will take on a couple of those.
    I mean, I hear exactly what you are saying, and probably 
the biggest buzzword in this whole area is ``sustainability,'' 
to make sure that anything that is done has a chance for being 
carried forward in the future.
    So, a couple of things. Obviously, we did eradicate 
smallpox. And systems were kept in place to ensure that it 
didn't come in back. So that has to be a goal that is put into 
every program.
    Mr. Rohrabacher. It hasn't come back yet.
    Ms. Calvin. It hasn't come back yet.
    Mr. Rohrabacher. But the fact is that if we are not 
successful in much of the Third World, it will come back, just 
like malaria was almost eliminated, as well, correct? I mean, 
malaria almost disappeared. Now, I mentioned that--well, I 
think it was pretty well attacked in Africa, as well. So the 
rates of malaria now have not gone up in the last 10 years in 
Africa? Yeah, they have dramatically risen in Africa in the 
last 10 years. Not that we have eliminated it, but the fact is 
that the DDT decision--but that is different than the point I 
am making.
    Ms. Calvin. So I want to agree with your point, basically, 
because I think you are right, that this is the most important 
thing. So things like The Global Fund, which requires countries 
to submit a plan--and the plan is not just to get the money for 
the services they are seeking, but it is to show a plan for how 
they will continue the program going forward, how they will be 
investing increasing parts of their own resources to make this 
a country-led plan in the future. So I think that is a shift 
that we are seeing in----
    Mr. Rohrabacher. So the corrupt dictator someplace in one 
of these despotic little countries, the corrupt dictator, he 
has to make that deal. But do you know what happens when you 
are dealing with people who have the morality level that they 
murder their own people because they might have said something 
in opposition to the government? Do you know what the morality 
level--do you know what the chances of that leader keeping his 
word is? Almost zero, because he has no morality.
    There are large numbers of people in power in various parts 
of the world who murder their own constituents, you might say, 
if there was any threat to their power. And they are not going 
to keep their word on that anyway.
    So, in the end, I would hope that, yes--by the way, the 
deworming thing is a very--and clean water, all of these things 
are very easily seen as a horrendous condition that poor people 
around the world find themselves. Their children end up with 
worms, and, like you say, it affects their ability to deal in 
school. We know that without clean water, it just saps the 
ability of people to live a healthy life and, thus, have 
progress in their society. So--and inoculations, I mean, it 
goes unsaid.
    But, in the end, these are services that their government 
is supposed to provide and they are not doing it. And most of 
the time, we are just suggesting, I think Mr. Robertsis 
suggesting, most of the time that is tied to the corruption and 
despotism of their own government. And until that changes, all 
we can do is temporarily alleviate some suffering. And whether 
or not the temporary alleviating of suffering is worth the type 
of major expenditures that we are talking about, I am not sure, 
unless it is coupled--now, by the way, you have made the point 
that we are talking about specific goals. But the specific 
goals in eliminating that suffering for now is not necessarily 
eliminating the fundamental cause of the problem, which was 
outlined by Mr. Roberts.
    And, Dr. McArthur, you have always had good comebacks, so 
go right ahead.
    Mr. McArthur. I don't want to disappoint.
    Just on the malaria bit--again, happy to follow up with you 
after that--the ecological factors affecting malaria 
transmission in Africa are actually different. So it never had 
the same inroads because it is actually a denser parasite 
there, in effect. So it is actually a unique case, which is why 
the breakthroughs now are the first time we have ever had it in 
the scale we have had.
    In terms of the points on corruption, I would only want to 
agree on the principle, but differing the application of its 
logic. So, corruption should be a vetting factor, and I would 
never advocate supporting dollars going to a disappearance act. 
That is absolutely the opposite of the point.
    I think we need to segment the developing countries in a 
couple of ways. One is the very poor versus the up-and-coming. 
I, roughly speaking, would draw the line at about $1,000 per 
capita income. So India, for example, is in the process of 
graduating from development assistance, and that is a great 
success. The countries that are at $200 per capita, $300 per 
capita income, they can't even afford, if they had every penny 
in their budget put to these things that you just described, 
they can't afford that.
    And so we need to segment to the second criteria on the 
countries that are committed to doing this, like that Malis 
that just democratically reelected President Toure, a terrific 
leader, like President Mutharika, democratically reelected, 
great support. And we need to help them implement the programs 
with all the accountability structures we have described.
    So if we think about the qualification hurdles of 
commitment and poverty, then we help support the integrated set 
of activities that help a country escape extreme poverty 
through growth, health, infrastructure, education, and so 
forth--and it has to be a joint venture strategy. It is not us 
bringing in all the resources. It is a joint financing 
strategy, theirs and the international community's. That is 
where we start to see real results, in our experience.
    I would just flag one final point. If we look at the 
questions of the deficit and the debt, the absolute values of 
the dollars we are talking about, I wish they were at the scale 
that were affecting those calculations in a real way. Again, we 
are talking about in an era of 10 percent of GNP deficits, down 
to 9 percent in the latest projections, we are talking about 
increasing by a few tenths of a point of a percent.
    Total U.S. Assistance to Africa was about $7.5 billion in 
2009--$7.5 billion. It is almost rounding error for most 
budgets. Compare that to any normal aggregate that we read 
about in the papers these days. The Wall Street bonuses alone 
in 2009 were $20 billion. So, whatever one might think of those 
bonuses, that reflects how these resources are actually being 
allocated in any aggregate scale.
    And so I think we need to understand that there are very 
small amounts of money--total global assistance to Africa from 
all the countries put together works out to about $45 per 
African. And that is to pay for everything.
    So I think it has to be, as you said, goal-based, targeted, 
outcome-driven, owned by national countries, joint financed, 
and then that is where we will see the breakthrough results 
continuing.
    Mr. Rohrabacher. Well, you know, a billion here and a 
billion there, and pretty soon you are talking about real 
money.
    Mr. McArthur. I agree.
    Mr. Rohrabacher. As to paraphrase our good friend Everett 
Dirksen.
    Just one thought on the bonuses. I happen to have been 
author of a piece of legislation that unfortunately didn't get 
anywhere, that any company that provided bonuses to their 
senior executives, the executives had to give that back before 
they could receive any support from the Federal Government in 
the form of bailouts.
    Unfortunately, the people giving these bailouts decided not 
to put that restriction on, just, as I might add, there are 
some people who don't want to put caps on the amount of money 
that is paid to executives who are partners of the United 
States but in a charitable institution.
    Thank you very much, Mr. Chairman.
    Mr. Carnahan. Thank you.
    And I just want to thank our panel today for illuminating 
us on these initiatives, the public and private partnerships 
that we have heard some great success stories but also some 
continuing challenges and I think a variety of different 
approaches, that we all need to be part of this debate.
    So thanks to all of you. Thanks to those of you who 
attended, especially the young people here. This is really 
important for you and your futures, as well. So thank you all 
for being here.
    We are adjourned.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Material Submitted for the Record by the Honorable Russ Carnahan, a 
 Representative in Congress from the State of Missouri, and Chairman, 
Subcommittee on International Organizations, Human Rights and Oversight

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[Note: ``From Promises to Delivery, Putting Human Rights at the Heart 
of the Millennium Development Goals,'' by Amnesty International, and 
``Joint Action Plan for Women's and Children's Health, Investing in Our 
Common Future,'' Working Papers of the Innovation Working Group, are 
not reprinted here but are available in committee records.]

                                 <all>

</pre></body></html>
